                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
April 13, 2012

Report Number: A-09-11-02035

Ms. Katherine Mills, C.P.A.
Chief Financial Officer
Donor Network of Arizona
201 West Coolidge Street
Phoenix, AZ 85013

Dear Ms. Mills:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Donor Network of Arizona Did Not Fully Comply With
Medicare Requirements for Reporting Organ Statistics and Related Costs in Its Fiscal Year 2009
Medicare Cost Report. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Lorrali Herrera, Senior Auditor, at (619) 557-6131, extension 105, or through email at
Lorrali.Herrera@oig.hhs.gov, or contact Danuta Biernat, Audit Manager, at (323) 261-7218,
extension 701, or through email at Danuta.Biernat@oig.hhs.gov. Please refer to report number
A-09-11-02035 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Katherine Mills


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



 DONOR NETWORK OF ARIZONA
 DID NOT FULLY COMPLY WITH
 MEDICARE REQUIREMENTS FOR
 REPORTING ORGAN STATISTICS
  AND RELATED COSTS IN ITS
      FISCAL YEAR 2009
   MEDICARE COST REPORT




                       Daniel R. Levinson
                        Inspector General

                           April 2012
                         A-09-11-02035
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, those with certain disabilities, and those who have
end-stage renal disease, which is permanent kidney failure. Section 1881 of the Act authorizes
Medicare reimbursement for dialysis, transplantation, and procurement of kidneys. The Centers
for Medicare & Medicaid Services (CMS) administers the Medicare program.

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers. An
OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. CMS requires
independent OPOs to submit Medicare cost reports annually to determine the amounts payable
under Medicare associated with kidney procurement. Medicare does not reimburse independent
OPOs for the costs of procuring organs other than kidneys.

The Medicare cost report summarizes OPOs’ statistical and financial data. The statistical data
include organ statistics, which consist of the number of kidney and nonkidney organs that the
OPO procured and/or administratively processed. The financial data include organ procurement
costs, which consist of direct costs, overhead costs, and administrative and general costs.

To ensure proper allocation of organ procurement costs so that Medicare pays for its fair share of
these costs, CMS’s Ruling No. 1543-R requires that OPOs report in their organ statistics not only
organs procured but also organs they attempted to procure. If an OPO overstates the number of
kidneys procured or understates the number of nonkidney organs procured, organ procurement
costs will not be properly allocated among kidney and nonkidney organs. Kidney procurement
costs will reflect costs that should have been allocated to nonkidney organs, resulting in
Medicare’s share of costs being overstated.

According to CMS’s Provider Reimbursement Manual, OPOs are not required to include in their
organ statistics those organs procured exclusively for research; however, OPOs must report
proceeds from the sale of research organs as a reduction to expenses.

Donor Network of Arizona (DNA), the federally designated, independent OPO for the State of
Arizona, submitted to the Medicare administrative contractor its fiscal year (FY) 2009 Medicare
cost report covering the period January 1 through December 31, 2009. Total costs reported in
DNA’s Medicare cost report were $25,977,391, of which Medicare’s share of organ procurement
costs was $7,084,183. For cost allocation purposes, DNA reported 270 kidneys and
279 nonkidney organs.

OBJECTIVE

Our objective was to determine whether DNA complied with Medicare requirements for
reporting organ statistics and related costs in its FY 2009 Medicare cost report.



                                                i
SUMMARY OF FINDINGS

DNA did not fully comply with Medicare requirements for reporting organ statistics and related
costs in its FY 2009 Medicare cost report:

   •   Based on our review of 65 donor case files, we determined that DNA reported incorrect
       kidney and pancreas statistics related to 3 donors. As a result, Medicare’s share of organ
       procurement costs was overstated by an estimated net amount of $5,855. DNA attributed
       the incorrect reporting of organ statistics to incorrect information provided by organ
       procurement staff to the finance department, which generates data reported in the
       Medicare cost report.

   •   DNA did not report proceeds from the sale of research organs as a reduction to its
       expenses. As a result, Medicare’s share of organ procurement costs was overstated by an
       estimated $2,600. DNA attributed the omission of research revenues to an inadvertent
       reporting error in preparing its Medicare cost report.

In total, Medicare’s share of organ procurement costs was overstated by an estimated $8,455 in
DNA’s FY 2009 Medicare cost report.

RECOMMENDATIONS

We recommend that DNA:

   •   submit a revised FY 2009 Medicare cost report to the Medicare administrative contractor
       to correct the estimated Medicare overstatement of $8,455 related to the reporting errors
       and

   •   ensure that the organ statistics and related costs reported in future Medicare cost reports
       comply with Medicare requirements.

DONOR NETWORK OF ARIZONA COMMENTS

In written comments on our draft report, DNA concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. DNA’s comments are included in their entirety as the Appendix.




                                                 ii
                                                 TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Program ..........................................................................................1
              Organ Procurement Organizations.................................................................1
              Medicare Reimbursement of Independent Organ Procurement
               Organizations ..............................................................................................1
              Medicare Cost Reports ...................................................................................2
              Allocation of Organ Procurement Costs ........................................................2
              Donor Network of Arizona ............................................................................3
              Office of Inspector General Reviews of Organ Procurement
               Organizations ..............................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................4

FINDINGS AND RECOMMENDATIONS ......................................................................5

          INCORRECT REPORTING OF ORGAN STATISTICS .........................................5
               Kidney Statistics ............................................................................................5
               Pancreas Statistics ..........................................................................................6

          UNREPORTED PROCEEDS FROM THE SALE OF
           RESEARCH ORGANS ..........................................................................................6

          RECOMMENDATIONS ...........................................................................................6

          DONOR NETWORK OF ARIZONA COMMENTS ...............................................7

APPENDIX

          DONOR NETWORK OF ARIZONA COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, those with certain disabilities, and those who have
end-stage renal disease (ESRD), which is permanent kidney failure. The ESRD Amendments of
1978, P.L. No. 95-292, added to the Act section 1881, which authorizes Medicare reimbursement
for dialysis, transplantation, and procurement of kidneys. The Centers for Medicare & Medicaid
Services (CMS) administers the Medicare program.

Organ Procurement Organizations

Organ procurement organizations (OPO) are not-for-profit organizations that are responsible for
procuring and preserving transplantable organs and transporting them to transplant centers.
CMS certifies OPOs to recover or procure organs in CMS-defined exclusive geographic service
areas pursuant to section 371(b)(1)(F) of the Public Health Service Act.

Pursuant to section 1138(b)(1) of the Act, for organ procurement costs to be reimbursed under
Medicare, an OPO must be a “qualified organ procurement organization” as described in
section 371(b) of the Public Health Service Act and meet several other statutory requirements.
Qualified OPOs have an agreement with the Secretary of Health and Human Services to be
reimbursed under Title XVIII of the Act for the procurement of kidneys.

An OPO may be independent or hospital-based. Independent OPOs work closely with donor
hospitals and transplant centers to facilitate organ donation and transplantation. Hospital-based
OPOs operate within a hospital’s administrative and financial structure.

Medicare Reimbursement of Independent Organ Procurement Organizations

The Medicare program reimburses independent OPOs only for the cost of procuring kidneys,
while transplant hospitals reimburse OPOs for procuring nonkidney organs. OPOs do not bill
Medicare directly for organ procurement services related to kidneys. The donor hospital
providing the kidney bills the OPO its customary charge. The OPO provides the kidney to the
certified transplant center, which pays the OPO and reports the kidney procurement costs in its
Medicare cost report. The OPO submits its own Medicare cost report, in which it reports the
costs of procuring the kidney and the payment it received from the certified transplant center.
Based on the cost report, Medicare Part A makes a retroactive adjustment directly with the
independent OPO to reconcile any overpayment or underpayment resulting from the total
payments that the independent OPO received from transplant centers for kidneys furnished for
transplantation.




                                                1
Medicare Cost Reports

CMS requires independent OPOs to submit Medicare cost reports annually so that it can properly
determine the amounts payable under Medicare associated with kidney procurement. The cost
report summarizes the OPO’s statistical and financial data to determine the amount claimed for
Medicare reimbursement. The statistical data include organ statistics, which consist of the
number of kidney and nonkidney organs that the OPO procured and/or administratively
processed. 1 The financial data include organ procurement costs, which consist of direct costs,
overhead costs, and administrative and general costs:

    •   Direct costs include costs for operating rooms, anesthesiology, respiratory therapy,
        intensive care units, and donor tissue typing.

    •   Overhead costs include costs for procurement coordinators, professional education, and
        public education.

    •   Administrative and general costs include costs for accounting and legal fees, office
        salaries and supplies, and travel and meetings.

Allocation of Organ Procurement Costs

To ensure proper allocation of organ procurement costs so that Medicare pays for its fair share of
these costs, CMS’s Ruling No. 1543-R (the Ruling) requires that OPOs report in their organ
statistics not only organs procured but also organs they attempted to procure. Furthermore,
CMS’s Provider Reimbursement Manual (the Manual), Pub. No. 15-2, chapter 33, instructs
independent OPOs on how to assign direct costs to a particular organ and allocate overhead costs
and administrative and general costs using the OPOs’ organ statistics:

    •   Section 3306 of the Manual requires independent OPOs to assign direct costs to a
        particular organ if the costs are specifically identifiable to that organ. For direct costs
        that are not specifically identifiable, OPOs are required to allocate those costs among the
        organs procured.

    •   Section 3311 of the Manual requires independent OPOs to allocate overhead costs to a
        particular organ based on the total number of organs procured and to allocate
        administrative and general costs to the particular organ based on the total accumulated
        direct costs and overhead costs.

If an OPO overstates the number of kidneys procured or understates the number of nonkidney
organs procured, organ procurement costs will not be properly allocated among kidney and


1
  Administrative processing includes activities such as arranging laboratory testing and locating prospective
recipients for organs that were attempted to be procured for transplant or for organs procured but not transplanted
because of a defect. Administrative processing also includes coordinating the procurement of organs obtained from
other OPOs.



                                                         2
nonkidney organs. Kidney procurement costs will reflect costs that should have been allocated
to nonkidney organs, resulting in Medicare’s share of costs being overstated.

Donor Network of Arizona

Donor Network of Arizona (DNA), incorporated in 1992 as a not-for-profit corporation, is the
federally designated, independent OPO for the State of Arizona. Its corporate office is located in
Phoenix, Arizona. DNA submitted its fiscal year (FY) 2009 (January 1 through
December 31, 2009) Medicare cost report to Cahaba Government Benefit Administrators, LLC,
the Medicare administrative contractor (MAC) responsible for reviewing the annual Medicare
cost reports for the 51 independent OPOs nationwide. Total costs reported in DNA’s Medicare
cost report were $25,977,391, of which Medicare’s share of organ procurement costs was
$7,084,183.

Office of Inspector General Reviews of Organ Procurement Organizations

Two prior Office of Inspector General reviews determined whether OPOs complied with
Medicare requirements for reporting selected organ acquisition overhead costs and
administrative and general costs in their Medicare cost reports. 2 Those reviews found that the
two independent OPOs did not fully comply with Medicare requirements and reported
unallowable and unsupported costs in their Medicare cost reports. However, those reviews did
not evaluate whether the OPOs complied with Medicare requirements for reporting organ
statistics.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DNA complied with Medicare requirements for
reporting organ statistics and related costs in its FY 2009 Medicare cost report.

Scope

For cost allocation purposes, DNA reported 270 kidneys and 279 nonkidney organs in its
FY 2009 Medicare cost report. For our review, we judgmentally selected 65 donor case files 3 to
determine whether the organ statistics for kidneys, hearts, lungs, livers, pancreases, pancreas
islets, and intestines were correctly reported.



2
 Review of OneLegacy’s Reported Fiscal Year 2006 Organ Acquisition Overhead Costs and Administrative and
General Costs (A-09-08-00033), issued January 28, 2010, and Review of California Transplant Donor Network’s
Reported Fiscal Year 2007 Organ Acquisition Overhead Costs and Administrative and General Costs
(A-09-09-00087), issued October 1, 2010.
3
 The donor case files included cases that were discontinued and cases that involved organs intended for research.
DNA did not include organs related to these cases in its FY 2009 Medicare cost report.



                                                         3
We did not review the overall internal control structure of DNA. We limited our review of
DNA’s internal controls to obtaining an understanding of its policies and procedures used for
reporting organ statistics in its Medicare cost report.

We conducted our audit from April 2011 to March 2012 and performed fieldwork at DNA’s
corporate office in Phoenix, Arizona.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   obtained DNA’s FY 2009 Medicare cost report from the MAC;

   •   obtained an understanding of DNA’s policies and procedures for reporting organ
       statistics in its Medicare cost report;

   •   reconciled the total costs reported in DNA’s FY 2009 Medicare cost report with its
       detailed trial balance;

   •   reconciled the organ statistics reported in DNA’s FY 2009 Medicare cost report with its
       organ donor log;

   •   judgmentally selected 65 donor case files based on higher risk areas and reviewed the
       medical record documentation to determine whether the organ statistics had been
       correctly reported;

   •   interviewed DNA officials and personnel;

   •   reviewed the MAC’s audit adjustments to the organ statistics and cost data reported in
       DNA’s FY 2009 Medicare cost report; and

   •   estimated the Medicare overpayments for overhead costs and administrative and general
       costs related to reporting errors.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                4
                             FINDINGS AND RECOMMENDATIONS

DNA did not fully comply with Medicare requirements for reporting organ statistics and related
costs in its FY 2009 Medicare cost report:

    •   Based on our review of 65 donor case files, we determined that DNA reported incorrect
        kidney and pancreas statistics related to 3 donors. As a result, Medicare’s share of organ
        procurement costs was overstated by an estimated net amount of $5,855. 4 DNA
        attributed the incorrect reporting of organ statistics to incorrect information provided by
        organ procurement staff to the finance department, which generates data reported in the
        Medicare cost report.

    •   DNA did not report proceeds from the sale of research organs as a reduction to its
        expenses. As a result, Medicare’s share of organ procurement costs was overstated by an
        estimated $2,600. DNA attributed the omission of research revenues to an inadvertent
        reporting error in preparing its Medicare cost report.

In total, Medicare’s share of organ procurement costs was overstated by an estimated $8,455 in
DNA’s FY 2009 Medicare cost report.

INCORRECT REPORTING OF ORGAN STATISTICS

DNA reported incorrect kidney and pancreas statistics in its FY 2009 Medicare cost report. As a
result, DNA overstated Medicare’s share of organ procurement costs by an estimated net amount
of $5,855.

Kidney Statistics

The Manual, part 2, section 3306, states: “For each organ procurement, of both kidneys, count
kidneys as two organs for allocation purposes.” Furthermore, section 3306 states: “Pediatric
kidneys procured for transplantation ‘En bloc’ [organs procured as a unit] are to be counted as
one kidney for allocation purposes.”

Contrary to the Manual, DNA reported incorrect kidney statistics:

    •   DNA understated its kidney statistics by reporting two kidneys as one organ. The
        medical records for the donor showed that both kidneys were procured. Therefore, DNA
        should have reported two kidneys instead of one kidney in its Medicare cost report. As a
        result of the incorrect reporting, DNA understated Medicare’s share of organ
        procurement costs by approximately $6,000.




4
 The estimated Medicare overpayment consists of overhead costs and administrative and general costs. We did not
estimate overpayments related to direct costs.


                                                       5
   •   DNA overstated its kidney statistics by reporting an en bloc pediatric kidney as two
       kidneys. The medical records for the donor showed that the en bloc kidney was procured
       from a 7-month-old. Therefore, DNA should have reported one kidney instead of two
       kidneys in its Medicare cost report. As a result of the incorrect reporting, DNA
       overstated Medicare’s share of organ procurement costs by approximately $6,000.

DNA’s reporting of incorrect kidney statistics did not affect Medicare’s share of organ
procurement costs because DNA both understated and overstated Medicare’s share by
approximately the same amount.

Pancreas Statistics

The Ruling states that to ensure proper allocation of overhead costs, if procurement was
attempted but no organ procured, the organ must still be reported for purposes of proper cost
finding.

Contrary to the Ruling, DNA did not report a pancreas that was attempted to be procured for
transplant. The medical records for the donor confirmed that the pancreas was intended for
transplant; however, the pancreas was later sent to research. Because DNA understated its
pancreas statistics, the kidney procurement costs reflected costs that should have been allocated
to pancreases. As a result, DNA overstated Medicare’s share of organ procurement costs by an
estimated $5,855.

UNREPORTED PROCEEDS FROM THE SALE OF RESEARCH ORGANS

According to the Manual, part 2, chapter 33, independent OPOs are not required to include in
their organ statistics those organs procured exclusively for research; however, section 3309 of
the Manual requires independent OPOs to report proceeds from the sale of research organs as a
reduction to expenses. Because the proceeds are revenue, the OPO must reduce the expenses
reported for organ procurement by the same amount.

Contrary to the Manual, DNA did not report $5,000 of proceeds from the sale of research organs
as a reduction to expenses. As a result, DNA overstated Medicare’s share of organ procurement
costs by an estimated $2,600.

RECOMMENDATIONS

We recommend that DNA:

   •   submit a revised FY 2009 Medicare cost report to the Medicare administrative contractor
       to correct the estimated Medicare overstatement of $8,455 related to the reporting errors
       and

   •   ensure that the organ statistics and related costs reported in future Medicare cost reports
       comply with Medicare requirements.




                                                 6
DONOR NETWORK OF ARIZONA COMMENTS

In written comments on our draft report, DNA concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. DNA’s comments are included in their entirety as the Appendix.




                                             7
APPENDIX
             APPENDIX: DONOR NETWORK OF ARIZONA COMMENTS 





                                               DONOR 

                                               NETWORK OF ARIZONA

                                           A Donate Life Organization



March 3D, 2012

Donor Network of Arizona
201 West Coolidge Street
Phoenix, AZ 85013


Ms. Lori Ahlstrand
Regionallnspector General for Audit Services
Office of Audit Services, Region IX
90 - 7th Street, Suite 3-650
San Francisco, CA 94103

RE:     Response to Recommendations

        Report Number A-09-11-02035­
        Office of Inspector General draft report entitled Donor Network of Arizona Did Not Fully Comply
        With Medicare Requirements for Reporting Organ Statistics and Related Costs in Its Fiscal Year
        2009 Medicare Cost Report, March 2012


Dear Ms. Ahlstrand:

Per your request, the following is Donor Network's written response to the two recommendations
specified in the above referenced report:


             We concur with the 2009 Medicare overstatement of $5,855 due to incorrectly classifying a
             pancreas, and the overstatement of $2,600 for not properly reporting research organs. Per
             the Medicare Administrative Contractor's instructions, we will send a request to ask that they
             re-open the 2009 Medicare cost report. The MAC will then process the reopening and notify
             the CMS central office and ·they will let the OIG know when completed. Donor Network will
             forward the notice of reopening and the corrected NPR to the OIG documenting completion.

             We concur with the treatment of the identified incorrectly classified organ statistics and have
             taken steps to improve organ disposition follow through to ensure that organ statistics and
             related costs reported in future Medicare cost reports will comply with Medicare
             requirements.



Sincerely,




Katherine Mills, CPA
Chief Financial Officer




 201 W. Coolidge      Phoenix, Arizona 85013      602.222.2200          Fax 602.222.2202    1.800.94.DONOR
                                                 www.dnaz.org
